CERTIFICATE OF SERVICE
NO. 20-1224
O’Reilly Auto Enterprises, LLC, d/b/a O’Reilly Auto Parts
Petitioner,
v.
Brian Bell
Respondent.
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the
O’REILLY AUTO ENTERPRISES, LLC, DBA O''REILLY AUTO PARTS REPLY BRIEF OF PETITIONER, by
mailing three (3) true and correct copies of the same by Fedex 2-Day, prepaid for deliveryto the
following address.
Allan Keith Townsend
Employee Rights Group
92 Exchange Street
Portland, ME 04101
(207) 874-0905
atownsend@maineemployeerights.com
Counsel for Brian Bell

Lucas DeDeus

May 19, 2021
SCP Tracking: Morris-401 West A Street-Cover Tan

